No.

nnn rt rere

IN THE SUPREME COURT OF THE UNITED STATES

ANDRES KEYON ROMAN,
Petitioner
V.
UNITED STATES OF AMERICA,
Respondent

i  E

PROOF OF SERVICE

a

State of Texas )
County of Midland )
DEPOSITOR, being first duly sworn, deposes and says under oath:

That on October'ZQ 2020, the Motion for Leave to Proceed In Forma Pauperis, in the above-
entitled case, was deposited in a United States Post Office mail box located in Midland, Midland
County, Texas, with first class postage prepaid, properly addressed to the Clerk of the Supreme
Court of the United States and within the time allowed for filing said Petition for Writ of
Certiorari;

That an additional copy of the Petition and Motion to Proceed In Forma Pauperis were served
on Counsel for Respondent:

Solicitor General of the United States, Department of Justice
950 Pennsylvania Ave., Northwest
Washington, D.C. 20530
Dated at Midland, Midland County, Texas, this / ( ) day of October, 2020.

  
   

Subscribed and Sworn to before me
this VO day of October, 2020.

Depositor, Steve Hershberge

 

Respectfully submitted,
Joanna Mandonado Steve Hershberger, Attorney at Law
3m 600 No. Marienfeld St., Ste. 1035
ae see ID No. 126275751 Midland, TX 79701

 

432-570-4014

Attorney for Petitioner
